THE CITY OF NEW YORK

LAW DEPARTMENT

JAMES E. JOHNSON
Corporation Counsel

100 CHURCH STREET
NEW YORK, NY 10007

RICHARD DEARING
Chief, Appeals Division
Phone: (212) 356-2501
Fax: (212) 356-1148
rdearing@law.nyc.gov

June 10, 2020
Hon. Scott S. Harris, Clerk of the Court
Supreme Court of the United States
Office of the Clerk
One First Street, N.E.
Washington, DC 20543-0001
RE:

United Parcel Service, Inc. v. New York, et al.,
Docket No. 19-1306

Dear Mr. Harris:
I am an attorney in the office of James E. Johnson, Corporation Counsel of
the City of New York, and counsel of record for plaintiff-respondent City of New
York in the captioned case. On May 15, 2020, petitioner filed a petition for a writ of
certiorari, which was placed on the docket on May 20, 2020. Prior to that filing,
petitioner requested and received a 60-day extension to file its writ of certiorari.
The City of New York now respectfully requests a 30-day extension to file its
opposition, up to and including July 20, 2020. We are requesting this extension of
time due to the press of work.
Petitioner consents to this request. Counsel for respondent the State of New
York has also sought a 30-day extension to file its opposition.
Thank you very much for your consideration.
Sincerely,
/s/
Richard Dearing
Chief, Appeals Division

cc:
Mark Andrew Perry
Counsel for United Parcel Service, Inc.
Gibson Dunn & Crutcher, LLP
1050 Connecticut Avenue, N.W.
Washington, DC 20036
mperry@gibsondunn.com
Steven C. Wu
Counsel for the State of New York
Office of the Attorney General
28 Liberty Street
New York, NY 10005
steven.wu@ag.ny.gov

-2-

